fan
summme  \CSQCKLE

: E-Mail Address:

Omaha, Nebraska 68102-1214 Legal B i efs contact@cocklelegalbriefs.com
St. 1923

1-800-225-6964

(402) 342-2831

Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-351

FEDERAL REPUBLIC OF GERMANY,

A FOREIGN STATE, AND STIFTUNG
PREUSSISCHER KULTURBESITZ, AN
INSTRUMENTALITY OF A FOREIGN STATE,
Petitioners,

v.
ALAN PHILIPP, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 8977 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of October, 2019,
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . Le Qudrow- .
My Commission Expires Nov 24, 2020

Notary Public Affiant

 

38826
